No. 19-635
In the

Supreme Court of the United States
__________________
DONALD J. TRUMP,
v.

Petitioner,

CYRUS R. VANCE, JR., in His Official Capacity as
District Attorney of the County of New York, et al.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

__________________

AMICUS BRIEF OF CHRISTIAN FAMILY
COALITION (CFC) FLORIDA, INC. IN
SUPPORT OF THE PETITION FOR WRIT OF
CERTIORARI
__________________
DENNIS GROSSMAN
Counsel of Record
6701 Sunset Drive, Suite 104
Miami, Florida 33143
(516) 466-6690
dagrossmanlaw@aol.com
Counsel for Amicus Curiae

November 25, 2019
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
AMICUS BRIEF OF CHRISTIAN FAMILY
COALITION (CFC) FLORIDA, INC.,
A
FLORIDA
NOT-FOR-PROFIT
CORPORATION . . . . . . . . . . . . . . . . . . . . . . . . . . 1
INTEREST OF THE AMICUS . . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I.

This Court Should Grant Certiorari Because
the Petition Raises Extremely Important
Issues of Presidential Immunity Which
Repeatedly Have Warranted Review in This
Court . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

II.

On the Merits, the Subpoena Should Be
Quashed Because of the Plausible Risk It
Will Cause Serious Distraction and Diversion
From Presidential Duties . . . . . . . . . . . . . . . . 3

III.

The Subpoena Should Be Quashed Also
Because State and Local Authorities May
Not Issue Process Which Impairs The
President’s Ability to Perform His Official
Duties . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

ii
TABLE OF AUTHORITIES
CASES
Clinton v. Jones,
520 U.S. 681 (1997). . . . . . . . . . . . . . . . . . . passim
Johnson v. Maryland,
254 U.S. 51 (1920). . . . . . . . . . . . . . . . . . . . . . . . 11
M’Culloch v. Maryland,
17 U.S. 316 (1819). . . . . . . . . . . . . . . . . . . . . . . . 12
Nixon v. Fitzgerald,
457 U.S. 731 (1982). . . . . . . . . . . . . . . . . . . . 3, 8, 9
Osborn v. Bank of United States,
22 U.S. 738 (1824). . . . . . . . . . . . . . . . . . . . . 11, 12
U.S. v. Nixon,
418 U.S. 683 (1974). . . . . . . . . . . . . . . . . . . passim
Younger v. Harris,
401 U.S. 37 (1971). . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTION
U.S. Const. Art. II . . . . . . . . . . . . . . . . . . . . . . passim
U.S. Const. Art. VI, § 2 (Supremacy Clause) . . . . . 11

1
AMICUS BRIEF OF CHRISTIAN FAMILY
COALITION (CFC) FLORIDA, INC., A FLORIDA
NOT-FOR-PROFIT CORPORATION
The Christian Family Coalition (CFC) Florida, Inc.
(“CFC” or “Amicus”), hereby submits its Brief Amicus
Curiae in support of (1) the Petition for Certiorari filed
by the President of The United States, Donald J.
Trump, (2) reversal of the judgment of the Second
Circuit, and (3) issuance of the injunction the President
seeks. The Second Circuit – although reversing the
District Court’s dismissal of the President’s action in
which the District Court had ordered dismissal based
on Younger v. Harris abstention (401 U.S. 37 (1971)) –
affirmed the District Court’s alternative decision
denying the President’s motion for an injunction
against the subpoena. This Court should grant
certiorari and reverse the denial of the injunction.
INTEREST OF THE AMICUS1
Amicus is a non-profit corporation registered in
Florida since 2003 as a human rights and social justice
advocacy organization representing over 500,000 fairminded voters in the Sunshine State. Amicus actively
seeks to protect human rights and social justice in
litigation and political forums. These values also are

1

Counsel for both parties were given notice and have consented to
the filing of this Amicus Brief. No counsel or other representative
or agent of any party in this case authored any part of this brief or
exercised any form of control or approval over this Amicus Brief or
any portion of it. No person or entity, aside from Amicus or its
counsel, made a monetary contribution to the preparation or
submission of this Amicus Brief.

2
among the President’s responsibilities as Chief
Executive and Commander-in-Chief under Article II of
the Constitution. Amicus has an interest in this
petition because the subpoena which is directed to the
President and his business holdings is a wide-ranging
fishing expedition which will seriously impair the
Presidential function and office.
SUMMARY OF ARGUMENT
This Court should grant certiorari, reverse the
judgment of the Second Circuit, and order the
injunction the President requests.
The subpoena at issue, in its limitless reach and
draconian consequences for the President’s private
business interests, represents an unwarranted
intrusion into the President’s ability to perform his
responsibilities and will cause an impermissible
distraction and diversion of the President’s energies
and focus from his critical responsibilities in violation
of Article II of the Constitution. The present wideranging subpoena, with its clear excess and potential
for Presidential distraction and dysfunction, is not
consistent with this Court’s jurisprudence which
permits only discrete and limited intrusions into the
Presidential sphere in terms of subpoenas or personal
liability.
Additionally, the subpoena violates the Division of
Powers and principles of federalism. State and local
officials – the present subpoena was issued by the local
District Attorney in New York County, New York –
may not control or impair the President’s performance.

3
ARGUMENT
I.

This Court Should Grant Certiorari
Because the Petition Raises Extremely
Important Issues of Presidential Immunity
Which Repeatedly Have Warranted Review
in This Court

This Court should grant certiorari by reason of the
extremely important issues of Presidential
administration and immunity raised in the petition.
These issues encompass the President’s ability to
perform his duties under Article II of the Constitution,
Presidential immunity, and the proper balance
between Presidential and judicial authority in the face
of the wide-ranging subpoena which is at issue here.
When Presidential immunity is at issue, nothing less
than the President’s ability to effectively perform his
official duties is at stake. This Court has repeatedly
recognized the importance of certiorari to review issues
of Presidential immunity. Clinton v. Jones, 520 U.S.
681 (1997); Nixon v. Fitzgerald, 457 U.S. 731 (1982);
U.S. v. Nixon, 418 U.S. 683 (1974).
II.

On the Merits, the Subpoena Should Be
Quashed Because of the Plausible Risk It
Will Cause Serious Distraction and
Diversion From Presidential Duties

Amicus fully supports the President’s petition and
the grounds asserted therein. However, there is an
additional and alternative ground under Article II of
the Constitution for issuance of the injunction the
President requests.

4
Respondent’s wide-ranging and blunderbuss
criminal subpoena for virtually all the President’s
private financial records and income-tax returns for the
past 8 years poses a plausible risk of serious distraction
from the President’s performance of his official duties
and responsibilities. The likely distraction and
diversion from the duties of Office are palpable and
real. Article II of the Constitution commands that the
subpoena be quashed.
The official duties and responsibilities of the
President are daunting. Under Article II of the
Constitution, the President is Commander-in-Chief of
the nation’s armed forces, is responsible for their
conduct everywhere in the world, is Chief Executive of
the United States government, the nation’s
representative to the rest of the world, the person
responsible for choosing all major department heads
and federal judges (subject to Senate approval), and the
single person ultimately responsible for the functioning
of the entire Executive Branch of Government.
The President has the nuclear-launch codes by his
side 24/7, must be ready and focused at a moment’s
notice to address any crisis at any time anywhere in
the world and beyond, is on-call at 3:00 AM no less
than 9-5, and requires a live-in office in the White
House to discharge his official duties around the clock
and around the world.
The details of the present subpoena show the
enormity and breadth of its likely distraction from the
President’s critical Article II responsibilities. The
subpoena in blunderbuss fashion seeks “all” income tax
returns, financial statements, work papers, source

5
documents, and much more, for an 8-year period from
2011 to present (App.pp.117a-120a). Any reasonable
person in its focus would be distracted by it and
actively concerned in its wake. Common sense and the
reality of any broad-ranging criminal subpoena compel
this conclusion. The subpoena inherently carries with
it the dual potential for draconian consequences in its
criminal nature and the specter of litigation surprise
and guesswork in its enormous breadth. Its effect, if
not purpose, will keep any target guessing, concerned,
distracted, and in constant contact with one’s
accountants, advisors and attorneys over it – precisely
the distraction and dysfunction that Presidential
immunity and Article II are designed to avoid.
The far-reaching and intrusive reach of the
subpoena distinguishes this case from decisions of this
Court which allowed limited judicial inroads into the
President’s time and energies. Specifically, the wideranging and virtually limitless reach of the present
criminal subpoena distinguishes it from the narrow
and discrete exceptions to Presidential immunity
allowed in Clinton v. Jones, supra, 520 U.S. 681 (1997),
and U.S. v. Nixon, supra, 418 U.S. 683 (1974).
An examination of Clinton and Nixon underscores
the point. In Clinton this Court allowed Ms. Paula
Jones to pursue her claim against the sitting President
Clinton arising from discrete and limited instances
of sexual abuse by Mr. Clinton occurring prior to his
Presidency. This Court in Clinton discussed the
relatively limited intrusion that the action – which
arose from specific discrete events primarily on a single
day in 1991 (520 U.S. at 685) – would portend for the

6
functioning of the Clinton Presidency. Id., at 691-92.
This Court held that “separation-of-powers principles
would [not] be violated by allowing this action to
proceed.” Id., at 699 (emp.added). This Court in
Clinton further underscored the limited nature of the
intrusion from Ms. Jones’s highly specific claim by
analogizing it to – and implicitly approving – two
similarly non-intrusive lawsuits against President
Kennedy arising from a single automobile accident
occurring prior to his Presidency. Id., at 692.
This Court permitted, the same type of limited
intrusion into Presidential administration in U.S. v.
Nixon. In Nixon this Court upheld a relatively
narrowly focused criminal trial subpoena for discrete
communications between President Nixon and some of
his aides when the latter were criminal defendants.
This Court in Nixon underscored the extremely limited
intrusion of the subpoena because it reflected a
“demonstrated specific need for evidence” consisting of
“disclosure of a limited number of conversations “
(418 U.S. at 713; emp.added).
Thus the discrete and limited foci of both the
lawsuit in Clinton and subpoena in Nixon underscored
the limited nature of any intrusion or dysfunction they
would cause.
Neither would adversely affect
Presidential administration or the President’s
responsibilities and duties under Article II. Neither a
single lawsuit arising from discrete sexual acts
(Clinton) nor a subpoena compelling “disclosure of a
limited number of conversations” (Nixon) would impair
the proper functioning of the Presidency or present a

7
plausible risk that Presidential energies or focus would
be diverted or distracted in a material way.
Clinton and Nixon stand in extreme contrast to the
present subpoena.
The present subpoena is a
blunderbuss, broad, and virtually limitless command
by a local prosecutor for production of “all” income tax
returns, financial statements, financial records,
supporting papers, and far more, concerning the
President’s vast multi-billion-dollar business enterprise
spanning a period of 8 years since 2011 (App.pp.117a120a). There is no way the present subpoena is
consistent with proper and reasonable functioning of
the Presidential Office.
The subpoena requires
inordinate focus and distraction from any other calling
or endeavor.
The ultimate victims will be the
American citizenry and indeed all persons worldwide
who depend on the President’s undistracted attention
to the weighty matters of state and the pursuit of world
peace.
The Second Circuit’s rationale to the contrary is
flawed. The Second Circuit belittled the intrusive
nature of the subpoena, reasoning it “does not require
the President to do anything at all” (App.p.20a) –
apparently because the subpoena technically is directed
not to the President but to his accountants who hold
his financial and tax records. The Second Circuit
focused on the wrong burden. The problem is not the
burden of production but the burdens of distraction and
diverted attention. The latter burdens are real and
palpable under the present subpoena which poses a
plausible risk of substantial distraction and diversion

8
from Presidential duties in violation of Article II of the
Constitution.
This Court has underscored the disastrous potential
for Presidential distraction that compels a finding of
Presidential immunity. In Nixon v. Fitzgerald, supra,
457 U.S. 731 (1982), this Court held that the President
is immune from personal liability for official acts
performed in office because of the serious potential for
Presidential distraction over fears of personal liability.
This Court held:
“Because of the singular importance of the
President’s duties, diversion of his energies by
concern with private lawsuits would raise
unique risks to the effective functioning of
government. As is the case with prosecutors and
judges – for whom absolute immunity is now
established – a President must concern himself
with matters likely to arouse the most intense
feelings…. Nor can the sheer prominence of the
President’s office be ignored. In view of the
visibility of his office and the effect of his actions
on countless people, the President would be an
easily identifiable target for suits for civil
damages.
Cognizance of this personal
vulnerability frequently could distract a
President from his public duties, to the
detriment of not only the President and his office
but also the Nation that the Presidency was
designed to serve.”
Nixon v. Fitzgerald, 457 U.S. at 751-53.

9
Admittedly, Nixon v. Fitzgerald dealt with
Presidential immunity for official acts rather than
immunity from litigation over private acts. But the
distraction and diversion of energies that both cause
are the same especially where, as here, the titanic
nature of the subpoena concerning private acts carries
over into the public sphere and creates a plausible risk
of diversion of energies and distraction from official
Presidential duties.
This Court’s later analysis of Nixon v. Fitzgerald is
not inconsistent with this result. In Clinton v. Jones,
this Court explained that the “dominant concern” in
Nixon v. Fitzgerald was to protect the President from
liability for official acts by enabling the President to
make official decisions without “diversion of the
President’s attention” caused by concerns over a later
damage action. 520 U.S. at 694 n.19. But the fact that
this was the “dominant concern” in Nixon v. Fitzgerald
does not mean it was the only concern. This Court’s
broader recognition in Nixon v. Fitzgerald – of the
deleterious effects that the judicial process (including
subpoenas) may have on Presidential function and
performance – applies as much to overbroad judicial
intrusion into private matters as to personal liability
arising from official acts.
This Court left open exactly this issue in Clinton v.
Jones. In Clinton this Court recognized that – and
expressly did not decide whether – an “exceptional
case[ ]” may require a blanket Presidential immunity
from a particular judicial process notwithstanding its
origin in private rather than official acts (520 U.S. at
690n.12: not decide “exceptional case[ ]”). For this

10
purpose, the present petition clearly involves an
“exceptional case” warranting Presidential immunity
and entry of the requested injunction. The enormous
breadth and depth of the wide-ranging criminal
subpoena – and the distraction and diversion of
Presidential energy and focus it will cause –
distinguish this present case from the discrete and
limited incursions into Presidential time this Court
permitted in Clinton v. Jones for the singular lawsuit
arising from discrete acts of sexual harassment or in
U.S. v. Nixon for the specific and limited trial subpoena
for “disclosure of a limited number of conversations.”
Indeed, if this case is not an “exceptional case[ ]”
warranting Presidential immunity, it is hard to
imagine any case that would be. The integrity and
function of the Presidency clearly warrant the
injunction the President seeks.
This is not a political or partisan issue. Rather, this
is an issue that goes to the heart and soul of the
Presidential Office and the President’s ability to
function effectively as the elected Chief Executive of
the nation. This is an issue which cuts across party
lines and transcends partisan beliefs. A Republican or
Conservative President today who is victimized by an
abusive subpoena issued by Democratic or liberal
governmental officials may be followed tomorrow by a
Liberal Democratic President victimized by a similar
subpoena issued by Conservative Republican
opponents. Neither is permissible. Neither can
withstand scrutiny under Article II of the Constitution.
The protection of the institution of the Presidency
requires the injunction the President seeks.

11
For these reasons, the President’s ability to perform
his Article II responsibilities unimpaired by
distractions from respondent’s wide-ranging
blunderbuss criminal subpoena mandate reversal of
the judgment of the Second Circuit with directions to
issue the requested injunction quashing the subpoena.
III.

The Subpoena Should Be Quashed Also
Because State and Local Authorities May
Not Issue Process Which Impairs The
President’s Ability to Perform His Official
Duties

In addition to the above reasons for granting the
requested injunction, the nature of our federal system
separately requires the same result. The subpoena at
issue emanates not from a federal authority but from
the local District Attorney in New York County, New
York. This Court has consistently held that State and
local officials may not use their powers to impair or
affect the functions of federal officials. Clinton v.
Jones, 520 U.S. at 691 n.13 (“Because [of] the
Supremacy Clause … any direct control by a state court
over the President … may implicate concerns that are
quite different from the inter-branch separation-ofpowers questions addressed here [federal court vs.
President]”); 2 see also Johnson v. Maryland, 254 U.S.
51 (1920) (State may not require U.S. Post Office mailtruck driver to obtain State driver’s license); Osborn v.

2

This Court in Clinton v. Jones expressly declined to decide
whether a State court action could proceed against the President,
520 U.S. at 691, while strongly intimating that it may not. Id., at
691n.13.

12
Bank of United States, 22 U.S. 738, 867-68 (1824)
(State may not control or tax an entity of the federal
government); M’Culloch v. Maryland, 17 U.S. 316, 42930 (1819) (same).
The import and lesson of these cases are clear.
They restrict State authority which purports to control
or impair in any way the official performance of a
federal governmental official or entity. This principle
should apply with special vigor to protect the Office of
the President – the federal government’s Chief
Executive officer – from assertions of control by State
courts.
There are an estimated 5,000+ local prosecuting
attorneys’ offices throughout the United States. The
potential for abuse and political mischief is obvious.
Many local District Attorneys, if not most – including
the present respondent – are elected in partisan
elections with strong political biases. Not surprisingly,
the present respondent is a Liberal Democrat who has
served the present wide-ranging criminal subpoena
seeking information and documents concerning a
Conservative Republican President. To allow this kind
of political gamesmanship to infect and distract the
Presidency with compulsory subpoena process is to
degrade the Office of the President and expose every
future President to the same meddling, control,
distraction and abuse.
If allowed in this case, then every future President –
especially Presidents with extensive business
holdings – will be vulnerable to the same abuse and
degradation. It will not matter whether the President
is a Democrat, Republican, Liberal, Conservative, or

13
otherwise. There will always be some local prosecutor
somewhere – among the 5,000+ in the United States –
who will want to follow suit against any given
President, if allowed in this case. Article II of the
Constitution and the integrity of the Office of the
President command that this be shut down, now.
CONCLUSION
It bears emphasis that the impermissibility of a
State court subpoena in this situation is merely an
additional reason to quash this subpoena. The
primary reason, discussed above, remains:
The
subpoena is not confined to the type of discrete and
limited intrusion into the Presidential function allowed
in Clinton v. Jones or U.S. v. Nixon but instead
constitutes a wide-ranging, virtually limitless and
blunderbuss command for production of documents
that triggers a plausible risk of serious Presidential
distraction and diversion of energy and focus that will
impair the ability of the President to perform his
official duties.
For either or both of these reasons, the subpoena
contravenes Article II of the Constitution. This Court
should grant certiorari, reverse the judgment of the
Second Circuit, and order entry of the injunction the
President requests.

14
Respectfully submitted,
DENNIS GROSSMAN
Counsel of Record
6701 Sunset Drive, Suite 104
Miami, Florida 33143
(516) 466-6690
dagrossmanlaw@aol.com
Counsel for Amicus Curiae
Dated: November 25, 2019

